                                              EMPLOYMENT AND TRAINING ADMINISTRATION



Office of Inspector General—Office of Audit




                                              KITTRELL JOB CORPS CENTER:
                                              MANIPULATION OF STUDENT ATTENDANCE
                                              AND TRAINING RECORDS




                                                                   Date Issued: March 30, 2005
                                                               Report Number: 09-05-001-03-370
Department of Labor
Office of Inspector General                              March 2005
Office of Audit
                                                         KITTRELL JOB CORPS CENTER:
                                                         MANIPULATION OF STUDENT ATTENDANCE

BRIEFLY…
Highlights of Report Number: 09-05-001-03-370,
                                                         AND TRAINING RECORDS

                                                         WHAT OIG FOUND
a report to Emily Stover DeRocco, Assistant Secretary
for Employment and Training.                             We found that Kittrell managers manipulated
                                                         student attendance and training records to improve
                                                         the center’s reported performance. Reported
WHY READ THE REPORT                                      performance of high school diploma attainment and
                                                         job placements (unrelated to the complaint) also
This report discusses why performance data               was not reliable. These unreliable data affected
reported for the Kittrell Job Corps Center (Kittrell)    Job Corps financially because reimbursed
were not reliable and contains recommendations           operating expenses and incentive fees paid to
to improve that reliability.                             contracted center operators are based on reported
                                                         performance. The Kittrell center operator’s
                                                         maximum potential refund of reimbursed operating
WHY OIG DID THE AUDIT                                    expenses to the Government is $664,000. We also
                                                         question the validity of $112,000 in incentive fees
The Office of Inspector General conducted an             paid to the center operator.
audit at Kittrell to determine the merits of a hotline
complaint alleging that center managers falsified        WHAT OIG RECOMMENDED
student attendance and training records to
improve reported performance. This audit was             We recommended that the Assistant Secretary
also one in a series of planned audits to assess         ensure that Job Corps management takes
Job Corps’ processes for ensuring the reliability        corrective action. Our key recommendations are
of performance outcomes reported by center               (1) review student attendance records and
operators and career transition services (CTS)           performance data that affected payments to the
providers.                                               center operator; (2) defer the payment of future
                                                         performance incentive fees until any overpayment
                                                         has been repaid and center management
                                                         weaknesses have been adequately addressed; and
READ THE FULL REPORT
                                                         (3) monitor the Kittrell center and the CTS
                                                         contractor to ensure that they comply with Job
To view the report, including the scope,                 Corps’ requirements related to documentation to
methodology, and full agency response, go to:            support reported performance results.
http://www.oig.dol.gov/public/reports/oa/2005/09-
05-001-03-370.pdf                                        Subsequent to the audit, Job Corps and the center
                                                         operator performed analyses and obtained
                                                         documentation that they believe refute some of the data
                                                         irregularities identified in this report. Despite our
                                                         disagreement on the specific data irregularities, ETA
                                                         management has begun implementing all the
                                                         recommendations. Additionally, Job Corps is
                                                         implementing procedures to improve system-wide data
                                                         validation.
THIS PAGE INTENTIONALLY LEFT BLANK
                                                          Kittrell Job Corps Center: Manipulation of Student
                                                                           Attendance and Training Records




Table Of Contents
EXECUTIVE SUMMARY ..............................................................................................................3

ASSISTANT INSPECTOR GENERAL’S REPORT......................................................................7

FINDINGS, RECOMMENDATIONS, RESPONSE, AND CONCLUSIONS ..................................9

     FINDING 1 - Allegations that Kittrell Managers Manipulated Student
                 Attendance and Training Records are Valid ...............................................9

     FINDING 2 - Reported Performance for Measures Unrelated to the
                 Hotline Complaint was not Reliable...........................................................16

     OVERALL AUDIT CONCLUSION ........................................................................................18

     RECOMMENDATIONS.........................................................................................................19

     ETA RESPONSE AND OIG CONCLUSION ........................................................................19

EXHIBITS....................................................................................................................................23

     A. Reported Performance Outcomes Impact Reimbursable Expenses,
        Incentive and Bonus Payments, and Job Corps Supervision ..................................25
     B. Examples of Retention Committee Meeting Minutes .................................................27
     C. OIG Calculations for MTC’s Maximum Potential Refund to
        the Government.............................................................................................................29
     D. Improper Extension of Vocational Completers’ Enrollment .....................................30
     E. Five Vocational Students with Questionable TARs ...................................................31
     F. Questionable Graduate Placements............................................................................32
     G. Questionable Former Enrollee Placements ................................................................33

APPENDICES.............................................................................................................................35

     A.   BACKGROUND ..............................................................................................................37
     B.   OBJECTIVES, SCOPE, METHODOLOGY, SAMPLING, AND CRITERIA....................39
     C.   ACRONYMS AND ABBREVIATIONS............................................................................43
     D.   ETA RESPONSE TO DRAFT REPORT .........................................................................47




U.S. Department of Labor—Office of Inspector General                                                                             1
Report No: 09-05-001-03-370
                  Kittrell Job Corps Center: Manipulation of Student
                                   Attendance and Training Records




    THIS PAGE INTENTIONALLY LEFT BLANK




2             U.S. Department of Labor—Office of Inspector General
                                       Report No: 09-05-001-03-370
                                               Kittrell Job Corps Center: Manipulation of Student
                                                                Attendance and Training Records



Executive Summary
The Office of Inspector General (OIG) conducted an audit at the Kittrell Job
Corps Center, Kittrell, North Carolina, to determine the merits of a hotline
complaint alleging that center managers manipulated student attendance and
training records to improperly inflate reported performance. This audit was also
one in a series of planned audits to assess Job Corps’ processes for ensuring
the reliability of performance outcomes reported by center operators and career
transition services (CTS) providers. As such, additional tests of performance
data unrelated to the complaint were performed.

RESULTS

Our audit found that Kittrell managers manipulated student attendance and
training records to improve the center’s reported performance. We based our
conclusion on (1) interviews with the hotline complainant and several Kittrell
employees, (2) committee meeting minutes that show center managers’ decision
to manipulate student attendance records, and (3) testing and analysis of Kittrell
performance reports and supporting documentation (see page 9 of report). Our
testing and analysis also showed that reported performance in areas unrelated to
the hotline complaint was not reliable. Specifically, reported performance for
high school diploma attainment and job placements was not adequately
supported (see page 16 of report).

The performance data manipulation at Kittrell affected Job Corps financially
because reimbursed operating expenses, bonus and incentive payments, and
option years awarded to contracted center operators are based on reported
performance. For example, the amount of reimbursed operating expenses paid
to center operators is based on reported student attendance. Based on our
review of student attendance records for the period January 2000 through
December 2003, we found that Management Training Corporation’s (MTC)
maximum potential refund of reimbursed operating expenses to the Government
is $664,000.1 We also question the validity of the $112,000 in incentive fees paid
to the center operator during year one of its performance-based contract (6/1/02-
5/31/03). In addition to the financial impact, Job Corps’ oversight of center
operations is compromised because reported performance affects management
decision-making and the level of center supervision.

Kittrell managers may be subject to criminal liability pursuant to 18 United States
Code (U.S.C.) 1001 (false statements made to Federal Government), as well as

1
  The $664,000 represents the maximum potential overpayment based on our off-center review and
identification of questionable student attendance records. The supporting documentation (e.g., paid and
unpaid leave records, attempts to contact absent students) maintained at the center was not reviewed. As
such, some of the questionable student attendance records may be valid.

U.S. Department of Labor—Office of Inspector General                                                       3
Report No: 09-05-001-03-370
                                     Kittrell Job Corps Center: Manipulation of Student
                                                      Attendance and Training Records

civil penalties pursuant to 31 U.S.C. 3729 et seq. (False Claims Act) and 31
U.S.C. 3801 et seq. (Program Fraud Civil Remedies Act), for providing false
information in reports submitted to Job Corps. The OIG’s Office of Labor
Racketeering and Fraud Investigations (OLRFI) is conducting preliminary work at
Kittrell to determine whether a fraud investigation is warranted.

RECOMMENDATIONS

The OIG recommends that the Assistant Secretary for Employment and Training
ensure that Job Corps management takes appropriate action to address the
performance data manipulation and lack of documentation at Kittrell. These
actions should include ensuring that Job Corps management:

    1. review all Kittrell student attendance records and supporting
       documentation from at least January 2000 to the present to determine the
       correct amount of reimbursable expenses that should have been paid to
       MTC and recover any overpayment;

    2. review all Kittrell performance data and supporting documentation that
       factored into the incentive fees paid to MTC since its performance-based
       contract became effective (6/1/02) and recover any overpayment;

    3. consider our findings when making a decision regarding exercising the
       option years on MTC’s contract to operate the Kittrell center and CTS
       provider;

    4. defer payment of future performance incentive and bonus payments to
       MTC until any overpayment resulting from the Kittrell data manipulation
       has been repaid and center management weaknesses have been
       adequately addressed;

    5. monitor the Kittrell center and the CTS contractor to ensure that they
       comply with Job Corps’ requirements related to maintaining adequate
       documentation to support reported performance results; and

    6. test the reliability of performance data reported by all MTC operated
       centers and CTS providers and recover any overpayment.

ETA RESPONSE

The OIG provided a draft of this report to ETA management for review and
comment. The complete text of ETA’s response is provided in Appendix D of this
report. We made technical clarifications in the report where appropriate.

In response to our findings, ETA management stated that the OIG presented
strong evidence supporting that center staff manipulated student attendance


4                                U.S. Department of Labor—Office of Inspector General
                                                          Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

records to artificially improve reported Onboard Strength, a performance
measure indicating average weekly attendance. ETA management, however,
stated that our reporting of the $664,000 maximum potential refund of
reimbursed operating expenses exaggerated the actual extent of the problem.
The OIG included the “maximum” amount to quantify the potential financial risk to
the Government. The OIG recognizes that the actual extent of the problem is
unknown. Hence our recommendation that Job Corps determine the correct
amount of reimbursable expenses that should have been paid to MTC and
recover any overpayment. Also, ETA management did not believe that training
records were intentionally manipulated for center gain. They cited poor
management, imprecise record keeping, and human error as likely factors that
contributed to the performance data irregularities pertaining to training records
and areas unrelated to the hotline complaint.

Subsequent to the audit, we provided Job Corps with the sample details used in
our testing of Kittrell performance data. Job Corps shared these details with
MTC and obtained their response. However, in their January 28, 2005, response
to the draft report, ETA management opined that MTC had not been provided
sufficient information and time to fully respond. The OIG did not limit the
information to be shared with MTC. Based on the information we provided, Job
Corps and MTC performed analyses and obtained documentation that they
believe refute some of the data irregularities identified in this report. Despite our
disagreement on the specific data irregularities, ETA management has begun
implementing all the recommendations. Additionally, Job Corps is implementing
procedures to improve system-wide data validation.

OIG CONCLUSION

Based on ETA management’s response, all six of our recommendations are
resolved. To close these recommendations, ETA needs to provide
documentation of the corrective actions taken.




U.S. Department of Labor—Office of Inspector General                                  5
Report No: 09-05-001-03-370
                  Kittrell Job Corps Center: Manipulation of Student
                                   Attendance and Training Records




    THIS PAGE INTENTIONALLY LEFT BLANK




6             U.S. Department of Labor—Office of Inspector General
                                       Report No: 09-05-001-03-370
                                                 Kittrell Job Corps Center: Manipulation of Student
                                                                  Attendance and Training Records



U.S. Department of Labor                                   Office of Inspector General
                                                           Washington, DC. 20210




                            Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U. S. Department of Labor
200 Constitution Ave., N.W.
Washington, D.C. 20210

The Office of Inspector General (OIG) conducted an audit at the Kittrell Job
Corps Center, Kittrell, North Carolina, to determine the validity of a hotline
complaint alleging that center managers manipulated student attendance and
training records to improve reported performance. This audit was also one in a
series of planned audits to assess Job Corps’ processes for ensuring the
reliability of performance outcomes reported by center operators and career
transition providers.2 As such, additional tests of performance data unrelated to
the complaint were performed.

Our audit found that Kittrell managers manipulated student attendance and
training records to improve the center’s reported performance. We based our
conclusion on (1) interviews with the hotline complainant and several Kittrell
employees, (2) committee meeting minutes that show center managers’ decision
to manipulate student attendance records, and (3) testing and analysis of Kittrell
performance reports and supporting documentation. Our testing and analysis
also showed that reported performance in areas unrelated to the hotline
complaint was not reliable. Specifically, reported performance for high school
diploma attainment and job placements was not adequately supported. The
performance data manipulation at Kittrell affected Job Corps financially because
reimbursed operating expenses, bonus and incentive payments, and option
years awarded to contracted center operators are based on reported
performance. In addition to the financial impact, Job Corps’ oversight of center
operations is compromised because reported performance affects management
decision-making and the level of center supervision.

Kittrell managers may be subject to criminal liability pursuant to 18 United States
Code (U.S.C.) 1001 (false statements made to Federal Government), as well as
civil penalties pursuant to 31 U.S.C. 3729 et seq. (False Claims Act) and 31
U.S.C. 3801 et seq. (Program Fraud Civil Remedies Act), for providing false

2
  Upon the completion of this planned audit work, OIG will issue a separate report on the effectiveness of
Job Corps’ processes for ensuring that center operators and career transition services providers provide
reliable information regarding performance outcomes.

U.S. Department of Labor—Office of Inspector General                                                         7
Report No: 09-05-001-03-370
                                   Kittrell Job Corps Center: Manipulation of Student
                                                    Attendance and Training Records

information in reports submitted to Job Corps. The OIG’s Office of Labor
Racketeering and Fraud Investigations (OLRFI) is conducting investigative work
at Kittrell to determine whether criminal prosecution is warranted.




8                              U.S. Department of Labor—Office of Inspector General
                                                        Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records



Findings, Recommendations,
Response, and Conclusions

 Objective 1: Are               FINDING 1
 allegations that               ALLEGATIONS THAT KITTRELL MANAGERS
 Kittrell managers              MANIPULATED STUDENT ATTENDANCE AND
 manipulated                    TRAINING RECORDS ARE VALID
 student attendance
 and training records            We found that Kittrell managers manipulated
 to improperly inflate           student attendance and training records during
                                 January 2000 through December 2003. Our
 reported                        conclusion is based on (1) interviews with the
 performance valid?              hotline complainant and several Kittrell
                                 employees, (2) committee meeting minutes that
show center managers’ decisions to manipulate student attendance records, and
(3) testing and analysis of Kittrell performance reports and supporting
documentation. Performance measures affected by the data manipulation
include:

   •   Student Onboard Strength (OBS) - average weekly attendance
   •   Weekly Termination Rate (WTR) - average weekly student terminations
   •   30-Day Commitment Rate - students who stayed 30+ calendar days
   •   60-Day Commitment Rate - students who stayed 60+ calendar days
   •   Vocational Completion Rate - vocational program completions

During year one of Management Training Corporation’s (MTC) contract to
operate Kittrell, Job Corps paid MTC about $7 million for reimbursable operating
expenses and $246,286 as fixed profit. An additional $112,341 was paid to MTC
as a performance-based incentive fee. Kittrell’s performance for the contract
year did not qualify MTC for a performance bonus. For Program Year (PY)
2002, Job Corps ranked Kittrell’s overall performance 57th among 118 total
centers.

See Exhibit A (page 25) for details on how reported performance affects
reimbursed operating expenses, performance incentives and bonuses, option
years awarded to contracted center operators, and center supervision.




U.S. Department of Labor—Office of Inspector General                                  9
Report No: 09-05-001-03-370
                                       Kittrell Job Corps Center: Manipulation of Student
                                                        Attendance and Training Records

Hotline Complainant and Kittrell Employees Disclosed Data Manipulation
Process

Kittrell was selected for audit because of a hotline complaint filed by a former
Kittrell employee. The hotline complainant and several Kittrell employees
independently told the OIG how Kittrell managers manipulated performance data.
According to the complainant and employees, a Retention Committee consisting
of center managers reviewed daily and monthly performance data and projected
future performance based on student attendance and expected terminations.
When performance was projected to be below established goals, members of the
Retention Committee directed staff to manipulate student attendance and training
records. Specifically, center managers:

     •   extended student termination dates beyond the students’ actual
         departures by using a series of paid and unpaid administrative leave,
         absence without leave (AWOL), and present for duty off-center (PDOF)
         statuses,
     •   extended termination dates of students completing vocational programs by
         requiring or allowing them to stay at the center for excessive periods (over
         60 days) after graduation, and
     •   graduated students from vocational programs when the students had not
         obtained the required proficiency.

The hotline complainant and employees making the allegations had direct
knowledge of the data manipulation directed by members of the Retention
Committee. For example, one employee told us that a member of the Retention
Committee specifically asked the employee to inappropriately place departed
students on unpaid leave before terminating them from Job Corps. The
employee said that the use of leave to intentionally extend termination dates was
“frequent” and “daily as needed.” The hotline complainant said that the practice
of using leave to extend student termination dates occurred for many years.

Retention Committee Meeting Minutes Support Allegations

Retention Committee meeting minutes maintained by the center support the
allegations made by the hotline complainant and Kittrell employees. For
example, a June 14, 2001, entry notes:

         Unpaid leaves – [name of Retention Committee member] looking at
         where they will hit on our weekly terminations rate - Trying to
         stagger their days . . . [name of the hotline complainant] extend –
         [names of students]

The above entry shows the committee’s decision to manipulate the WTR
performance measure. Specifically, the hotline complainant was directed to
extend and stagger the termination dates of four students on unpaid leave, based

10                                U.S. Department of Labor—Office of Inspector General
                                                           Report No: 09-05-001-03-370
                                                   Kittrell Job Corps Center: Manipulation of Student
                                                                    Attendance and Training Records

    on a committee member’s review of the students’ projected termination dates.
    The OIG confirmed that unpaid leave, paid leave, and AWOL were used to
    stagger the termination dates of the noted students. The following timelines
    show that the period from the June 14 entry to the students’ termination dates
    ranged from 15 to 53 days.

                           Student Termination Dates Were Staggered
                                    (Students are numbered 1-4)

June 14                                       June 28
Meeting                                     Termination
Minutes                                    (15 total days)


1.                                                              July 23
     Unpaid Leave (4 days) + No Leave Record (11 days)       Termination
                                                             (40 total days)


2                                                                                August 2
                                                                                Termination
     Unpaid Leave (16 days) + Paid Leave (16 days) + AWOL (8 days)
                                                                               (50 total days)


3                                                                                                    August 20
                                                                                                    Termination
     Unpaid Leave (16 days) + Paid Leave (16 days) + AWOL (3 days) + Unpaid Leave (15 days)
                                                                                                    (53 total days)


4
        Paid Leave (15 days) + No Leave Record (15 days) + Unpaid Leave (15 days) + AWOL (8 days)

    See Exhibit B (page 27) for additional examples of Retention Committee meeting
    minutes and student leave patterns that show the Kittrell managers’ intent to
    manipulate student termination dates.

    OBS, WTR, and 30-day and 60-day Commitment Rates Performance Data
    were not Reliable

    Job Corps’ Policy and Requirements Handbook (PRH) states: “leave shall not be
    granted as a means of artificially postponing a student’s separation date.”3 Our
    testing of student administrative files and attendance records showed that
    inappropriate use of AWOL and paid and unpaid leave improved OBS, WTR, and
    the 30-day and 60-day commitment rates during PYs 2000-2002.




    3
     See PRH, Chapter 6.1 R2a entitled Administrative Support, Student Attendance, Leave and Absences,
    July 1, 2001.

    U.S. Department of Labor—Office of Inspector General                                                 11
    Report No: 09-05-001-03-370
                                               Kittrell Job Corps Center: Manipulation of Student
                                                                Attendance and Training Records

We judgmentally selected administrative files for 88 students enrolled at Kittrell
during PYs 2000-2002.4 We reviewed the files to determine whether
(1) attendance and leave patterns were consistent with the allegations made by
the hotline complainant and Kittrell employees, (2) AWOL and leave were
supported by documentation required by Job Corps policy (PRH 6.1) or center
operating procedures, and (3) credit for the 30-day and 60-day commitment rates
was received by the Outreach and Admissions (OA) contractor or Kittrell as a
result of AWOL and administrative leave extending termination dates.5 Our test
results for the 88 students showed:

     •   Of the 88 student records 42, or 48 percent, demonstrated a pattern of
         consecutive administrative leave and AWOL immediately prior to
         termination from the program.
     •   All 42 student records had questionable or missing documentation
         supporting that administrative leaves and AWOLs were valid. Of the 42, 4
         occurred in PY 2000, 19 occurred in PY 2001 and 19 occurred in PY
         2002. Required documentation includes properly approved paid and
         unpaid leave forms and AWOL forms documenting required follow-up with
         students.
     •   AWOL and administrative leave were combined, sometimes with summer
         and winter breaks, resulting in enrollment extensions of up to 57 days
         beyond the students’ actual dates of departure.
     •   The OA contractor received at least 5 30-day commitment rate credits as
         a result of students being placed on administrative leave and AWOL after
         their actual departure from the center. Of the 5, 1 occurred in PY 2000, 3
         occurred in PY 2001 and 1 occurred in PY 2002.
     •   The center received at least 11 60-day commitment rate credits as a result
         of students being placed on administrative leave and AWOL after their
         actual departure from the center. Of the 11, 3 occurred in PY 2000, 5
         occurred in PY 2001 and 3 occurred in PY 2002.

Table 1 shows how consecutive leave and AWOL were used to extend
termination dates and improve reported performance for three students included
in our sample. It also shows how the students’ administrative files did not contain
PRH or center required documentation supporting that leave and AWOLs were
valid.




4
  We judgmentally selected 88 of the 1,037 students that went AWOL during PYs 2000-2002 based on
information provided by the Job Corps Data center. Of the 88 students selected, 15 terminated between 30
and 45 days after enrollment, 22 terminated between 60 and 75 days after enrollment, and 51 had 6 or more
consecutive training days of AWOL.
5
  The center receives credit for the 60-day commitment rate and the Outreach and Admissions contractor
receives credit for the 30-day commitment rate.

12                                       U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 09-05-001-03-370
                                            Kittrell Job Corps Center: Manipulation of Student
                                                             Attendance and Training Records


      Table 1: Consecutive Use of Leave to Extend Termination Dates

Action                            Dates                 Days      Comments
Student 1:                                                        •    Student departed center 6 days
Enrollment                        3/13/01                              after enrolling
AWOL                              3/19/01-3/22/01          4      •    OA contractor received 30-day
Unpaid Leave                      3/23/01-4/4/01          13           credit due to AWOLs and leave
AWOL (terminated last day)        4/5/01-4/12/01           8      •    Unpaid leave form covered only 9
                                                                       of the 13 days
Consecutive Leave Prior to        3/19/01-4/12/01         25      •    Unpaid leave form not signed by
Termination                                                            counselor
Total Days Credited to Center     3/13/01-4/12/01         31      •    Dates on unpaid leave form
                                                                       appear to be altered
                                                                  •    Documentation of follow-up with
                                                                       student for one of the AWOLs not
                                                                       in file
Student 2:                                                        •    Student departed center 13
Enrollment                        5/23/01                              days after enrolling
AWOL                              6/5/01-6/6/01            2      •    OA contractor received 30-day
Unpaid Leave                      6/7/01-6/13/01           7           credit and center received 60-
AWOL                              6/14/01-6/17/01          4           day credit due to AWOLs and
Unpaid Leave                      6/18/01-6/29/01         12           leave
Paid Leave (summer break)         6/30/01-7/15/01         16      •    Documentation of follow-up with
AWOL (terminated last day)        7/16/01-7/23/01          8           student for all 3 AWOLs not in file
                                                                  •    Paid leave form not signed by
Consecutive Leave Prior to        6/5/01-7/23/01          49           student
Termination
Total Days Credited to Center     5/23/01-7/23/01         62
Student 3:                                                        •    Student departed center 9 days
Enrollment                        6/12/01                              after enrolling
Unpaid Leave                      6/21/01-6/29/01          9      •    OA contractor received 30-day
Paid Leave (summer break)         6/30/01-7/15/01         16           credit and center received 60-
AWOL                              7/16/01-7/18/01          3           day credit due to AWOLs and
Unpaid Leave                      7/19/01-8/8/01          21           leave
AWOL (terminated last day):       8/9/01-8/16/01           8      •    Documentation of follow-up with
                                                                       student for both AWOLs not in file
Consecutive Leave Prior to        6/21/01-8/16/01         57      •    Dates on unpaid leave form
Termination                                                            appear to be altered
Total Days Credited to Center     6/12/01-8/16/01         66


Review of Students Terminating from Kittrell During 2000-2003

To determine the extent to which leave and AWOL were potentially used to
inappropriately extend student attendance, we reviewed leave records for 100
percent of the students terminated during Calendar Year (CY) 2000-2003.6
Table 2 shows the number and percentage of student records that demonstrated
a pattern of consecutive leave and AWOL immediately before termination during
the 4-year period and the maximum potential refund to the Government

6
  Kittrell’s Student Accountability History Reports for CYs 2000 through 2003 provided detailed
leave information for students separating from the center during the 4-year period.

U.S. Department of Labor—Office of Inspector General                                              13
Report No: 09-05-001-03-370
                                              Kittrell Job Corps Center: Manipulation of Student
                                                               Attendance and Training Records

according to MTC’s contract to operate Kittrell (Section G.6, “Liquidated
Damages for Failure to Comply with Regulations for Separating Students”).

                                              Table 2

              No. of           Students with           Percentage with                Maximum
            Terminated         AWOL/Leave               AWOL/Leave                    Potential
  CY         Students             Pattern                  Pattern                    Refund*
 2000           659                  84                  12.7 percent                 $145,310
 2001           611                  81                  13.3 percent                 $141,625
 2002           600                126                   21.0 percent                 $200,310
 2003           545                100                   18.3 percent                 $176,605
Totals:       2,415                391                   16.2 percent                 $663,850
*See Exhibit C (page 27) for our detailed calculations of the maximum potential refund

Section G.6 of the Kittrell contract states that the contractor agrees to comply
with the current requirements for separating students from the program and that
the contractor will refund costs to the Government for each day a student is
retained in violation of Job Corps requirements. Our calculation of MTC’s
$664,000 maximum potential refund to the Government was based on the
formula provided in Section G.6 of the contract and the 391 student records we
identified that demonstrated a pattern of consecutive administrative leave and
AWOL immediately prior to termination from the program. The supporting
documentation (e.g., paid and unpaid leave records, attempts to contact absent
students) maintained at the center was not reviewed. As such, some of the
questionable student attendance records may be valid. See Exhibit C (page 29)
for our detailed calculations.

Extending Stays of Vocational Program Completers

Allegations made by the hotline complainant and the Retention Committee
meeting minutes indicated that center managers extended termination dates of
students completing vocational programs by requiring or allowing them to stay at
the center for excessive periods after graduation. Kittrell reported 1,037
vocational program completions during PYs 2000-2002.7 We statistically
sampled 33 records and performed tests to determine (1) lengths of stays at the
center after vocational program completion and (2) whether the records
supported additional academic, vocational, or career preparation training (e.g.,
work-based learning, driver’s education). We found that:

     •   Six of the 33, or 18 percent, remained on-center over 60 days after
         vocational program completion and did not have documentation in their


7
 Reported vocational program completions are from the Job Corps Vocational Training Report Card for
Kittrell. November-December 2001 data were not provided by the Job Corps Data Center located in San
Marcos, TX, and were not included in our analysis.

14                                      U.S. Department of Labor—Office of Inspector General
                                                                 Report No: 09-05-001-03-370
                                                Kittrell Job Corps Center: Manipulation of Student
                                                                 Attendance and Training Records

        files supporting additional academic, vocational, or career preparation
        training (two in PY 2000, two in PY 2001, two in PY 2002).
    •   The 6 students stayed at the center between 70 and 277 days after
        completing their vocational programs (70, 97, 147, 158, 163, and 277
        days).

See Exhibit D (page 30) for more detailed information regarding the six students.

Projecting our sample results to the 1,037 vocational program completions
reported during PYs 2000-2002, we estimate that there were 189 exceptions
where students stayed at the center over 60 days after vocational program
completion and did not have additional training documentation in their files.
However, we expect with a 90 percent confidence level (sampling error +/- 6.71
percent) that no more than 304 program completions, or 29 percent, had student
stays over 60 days after vocational program completion and did not have
additional training documentation.

Job Corps management told us that Job Corps implemented a Career Transition
Services (CTS) period for students in PY 2001 and that student stays beyond 60
days after vocational program completion became routine. We agree that there
are valid reasons for students staying beyond 60 days after vocational program
completion. However, we believe the lack of adequate supporting documentation
indicates a weak management control environment that is consistent with the
hotline complainant’s allegations that center managers inappropriately extended
termination dates of students completing vocational programs. It is also
consistent with Retention Committee meeting minutes noting that center staff
were instructed to delay departures of students that completed vocational
programs by holding up the processing of student termination papers.

Vocational Completion Rate was not Reliable

The hotline complainant told the OIG that vocational trainers were pressured by
the Retention Committee to graduate students even though the students had not
yet met the proficiency levels required to graduate. The complainant said that
student completions were “sped up so the center could meet its performance
goals.” The complainant estimated that this practice had a 15-20 percent
occurrence rate.

We reviewed our sampled 33 records to determine whether the reported program
completions were supported by a vocational Training Achievement Record (TAR)
as required by Job Corps policy (PRH 3.13).8 Of the 33 program completions
reviewed, we found that for 5, or 15 percent of those tested, the completions
8
  Reported vocational program completions are from the Job Corps Vocational Training Report Card for
Kittrell. The Center Report Card used to calculate performance incentives reports similar information. On
the Center Report Card, the center receives credit for each student completing a vocational program. On
the Vocational Training Report Card, the center receives credit for each vocational program completed.
Additional credit is given if a student completes more than one vocational program.

U.S. Department of Labor—Office of Inspector General                                                        15
Report No: 09-05-001-03-370
                                       Kittrell Job Corps Center: Manipulation of Student
                                                        Attendance and Training Records

were not adequately supported by a TAR. Therefore, we do not consider the
program completions as valid. We also question the validity of these completions
because in some cases vocational training programs were completed in 5-10
days and in other cases the recorded completion dates occurred shortly before
terminations due to AWOL or drug possession. The test results also indicate a
weak management control environment that is consistent with the hotline
complainant’s allegations that students were graduated without obtaining the
required proficiency. See Exhibit E (page 31) for a list of the five students and
the basis for our conclusions.

Projecting the sample results to the 1,037 vocational program completions
reported during PYs 2000-2002, we estimated that 158 of the program
completions were questionable. However, we expect with a 90 percent
confidence level (sampling error +/- 6.25 percent) that no more than 265, or 25
percent, of the program completions were questionable.


                                    FINDING 2
 Objective 2 - Was
 reported performance               REPORTED PERFORMANCE FOR
 for measures                       MEASURES UNRELATED TO THE HOTLINE
 unrelated to the                   COMPLAINT WAS NOT RELIABLE
 hotline complaint
                                     We also found that Kittrell’s reported
 reliable?                           performance was not reliable for three
                                     measures tested as part of our broader audit of
Job Corps performance data reliability. Specifically, the reported performance
was not adequately supported by documentation required by Job Corps or State
employment records. Neither the hotline complainant nor Kittrell employees
raised any data reliability issues relating to the three measures. The measures
were primarily selected because they were assigned the highest weights in Job
Corps calculations of overall performance ratings for centers and CTS providers.
The three measures tested include:

     •   General Educational Development (GED) Certificate/High School Diploma
         Attainment Rate – students attaining a GED Certificate or High School
         Diploma
     •   Graduate Placement Rate – graduates placed in a job, the military or
         school
     •   Former Enrollee Placement Rate – students that left the center after 60
         days of enrollment without graduating, but placed in a job, the military or
         school.




16                                U.S. Department of Labor—Office of Inspector General
                                                           Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

GED Certificate/High School Diploma Attainment Rate was not Reliable

We statistically sampled 40 of Kittrell’s 491 students reported as attaining a GED
certificate or high school diploma during PYs 2000-2002. We found that Kittrell
improperly received credit for 2 of 40, or 5 percent, of the GED/High School
Diploma attainment credits reviewed in our sample. For these two students, the
center was unable to provide either a high school transcript or passing GED test
score. Job Corps policy (PRH 3.11) requires that centers ensure that all student
test results and progress are documented.

One of the two exceptions had obtained a GED certificate at a different Job
Corps center before transferring to Kittrell for advanced vocational training. Job
Corps policy (PRH Chapter 5, Appendix 501a) notes that the center at which a
student obtains a GED certificate or high school diploma is to receive the
attainment credit, rather than the center where the student transferred to obtain
advanced vocational training. Training records for the second exception noted
that the student was ineligible for a GED certificate or high school diploma.
Kittrell management was not able to obtain a GED certificate or high school
diploma from the community college providing Kittrell students with academic
training for either of our two exceptions. Management was also not able to
explain how the improper credits occurred.

Projecting our sample results to the 491 GED/High School Diploma Attainment
credits reported during PYs 2000-2002, we estimated that 24 credits were
questionable. However, we expect with a 90 percent confidence level (sampling
error +/- 3.34 percent) that no more than 52, or 11 percent, of the total credits
were questionable.

Graduate Placement Rate was not Reliable

Kittrell students received job placement assistance from a contracted CTS
provider. The CTS provider served students leaving Kittrell and three other Job
Corps centers in North Carolina. Although Kittrell and the CTS provider are
operated by the same parent corporation, they are managed independently as
separate units. The CTS provider’s management and staff receive monetary
bonuses based on the number of students placed in jobs.

Our testing of reported graduate placements indicated that reported performance
was not reliable. We determined whether the graduate placements were
supported by a copy of an initial pay stub or direct written employer confirmation
as required by Job Corps policy (PRH Exhibit 4-2). We also determined whether
the reported placements were supported by wage history records provided by the
State of North Carolina. The lack of a wage history on file with the State would
suggest that the reported employer was not a legitimate business or the wages
were paid in cash and not reported to the State or Federal governments.



U.S. Department of Labor—Office of Inspector General                                 17
Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

According to Job Corps regional management, either of these situations would
preclude the CTS provider from receiving credit for the job placement.

We statistically sampled 36 of the 861 graduate placements reported by the CTS
provider during PYs 2000-2002. We found that 7 of the 36 placements, or 19
percent, were not adequately supported by the required documentation or a
wage history record. Projecting to the population, we estimated that 167 of the
reported graduate placements were questionable. However, we expect with a 90
percent confidence level (sampling error +/- 6.54 percent) that no more than 260
placements, or 30 percent, were questionable. See Exhibit F (page 32) for
details regarding the seven questionable graduate placements.

Former Enrollee Placement Rate was not Reliable

Former Enrollees are students who did not graduate from a vocational, high
school, or GED program while enrolled in Job Corps, but stayed at the center at
least 60 days before terminating. We statistically sampled 35 of the 550 former
enrollee placements reported by the CTS provider during PYs 2000-2002. We
found that 10 of the 35 placements, or 29 percent, were not adequately
supported by the required documentation or a wage history record. Projecting to
the population, we estimated that 157 placements were questionable. We expect
with a 90 percent confidence level (sampling error +/- 7.50 percent) that no more
than 225 placements, or 41 percent, were questionable. See Exhibit G (page 33)
for details regarding the 10 questionable former enrollee placements.

OVERALL AUDIT CONCLUSION

The OIG believes that the evidence and analysis developed during our audit
shows that Kittrell’s reported performance outcomes during January 2000
through December 2003 were not reliable and that center managers manipulated
performance data to improperly inflate the reported performance outcomes. This
evidence and analysis included:

     •   Separate allegations made by the hotline complainant and several Kittrell
         employees. The hotline complainant and employees had direct
         knowledge of the data manipulation directed by members of the Retention
         Committee.
     •   Retention Committee meeting minutes. The minutes recorded decisions
         to inappropriately extend student termination dates based on the
         committee’s review of the projected number of students leaving the center.
     •   OIG analysis and testing of attendance records and other supporting
         documentation. Our test results showed that the performance data
         manipulation by center management was significant.

Additionally, we found that the reported performance was not reliable for three
measures tested as part of our broader audit of Job Corps processes for

18                                U.S. Department of Labor—Office of Inspector General
                                                           Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

ensuring performance data reliability. The reported performance for the three
measures was not adequately supported by documentation required by Job
Corps or State employment records.

RECOMMENDATIONS

The OIG recommends that the Assistant Secretary for Employment and Training
ensure that Job Corps management takes appropriate action to address the
performance data manipulation and lack of documentation at Kittrell. These
actions should include ensuring that Job Corps management:

   1. review all Kittrell student attendance records and supporting
      documentation from at least January 2000 to the present to determine the
      correct amount of reimbursable expenses that should have been paid to
      MTC and recover any overpayment;

   2. review all Kittrell performance data and supporting documentation that
      factored into the incentive fees paid to MTC since its performance-based
      contract became effective (June 1, 2002) and recover any overpayment;

   3. consider our findings when making a decision regarding exercising the
      option years on MTC’s contract to operate the Kittrell center and CTS
      provider;

   4. defer payment of future performance incentive and bonus payments to
      MTC until any overpayment resulting from the Kittrell data manipulation
      has been repaid and center management weaknesses have been
      adequately addressed;

   5. monitor the Kittrell center and the CTS contractor to ensure that they
      comply with Job Corps’ requirements related to maintaining adequate
      documentation to support reported performance results; and

   6. test the reliability of performance data reported by all MTC operated
      centers and CTS providers and recover any overpayment.

ETA RESPONSE AND OIG CONCLUSION

The OIG provided a draft of this report to ETA management for review and
comment. The complete text of ETA’s response is provided in Appendix D. We
made technical clarifications in the report where appropriate.

Subsequent to the audit, we provided Job Corps with the sample details used in
our testing of Kittrell performance data. Job Corps shared these details with
MTC and obtained their response. However, in its January 28, 2005, response
to the draft report, ETA management opined that MTC had not been provided


U.S. Department of Labor—Office of Inspector General                                 19
Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

sufficient information and time to fully respond. The OIG did not limit the
information to be shared with MTC. Based on the information we provided, Job
Corps and MTC performed analyses and obtained documentation that they
believe refute some of the data irregularities identified in this report. Despite our
disagreement on the specific data irregularities, ETA management agreed to
implement all the recommendations.

A summary of ETA’s response to each finding of the draft report follows.

Finding 1: Allegations that Kittrell managers manipulated student
attendance and training records are valid.

ETA management stated that the OIG presented strong evidence supporting that
center staff manipulated student attendance records to artificially improve
reported OBS. However, ETA management stated that OIG’s reporting of the
$664,000 maximum potential refund of reimbursed operating expenses
exaggerated the actual extent of the problem. We included the “maximum”
amount to quantify the financial risk to the Government. The OIG recognizes that
the actual extent of the problem is unknown. Hence our recommendation that
Job Corps determine the correct amount of reimbursable expenses that should
have been paid to MTC and recover any overpayment. Also, ETA management
did not believe that training records were intentionally manipulated for center
gain. ETA attributed the data irregularities in this area to poor management,
imprecise record keeping, and human error.

Finding 2: Reported performance for measures unrelated to the hotline
complaint was not reliable.

ETA management stated that they did not believe that the evidence presented
supported intentional manipulation of the GED Certificate/High School Diploma
Attainment Rate, Graduate Placement Rate, and Former Enrollee Placement
Rate. They also attributed the data irregularities in these areas to poor
management, imprecise record keeping, and human error. The OIG did not
attribute the data irregularities in our second finding to intentional manipulation.
We simply reported that the reported performance for measures unrelated to the
hotline complaint was not reliable.

Additional action to ensure performance data reliability reported by ETA.

Job Corps has already begun taking action to ensure performance data reliability
at all centers and CTS providers. To improve system-wide data validation Job
Corps has:

     •   initiated updates to the Program Assessment Guide (PAG), which is the
         technical assistance guide for regional office reviews of centers,



20                                U.S. Department of Labor—Office of Inspector General
                                                           Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

   •   required each regional office to conduct mandatory audits of student
       records concurrent with annual center quality assessments,

   •   convened a national office workgroup to make recommendations for
       processes to ensure system-wide integrity of performance data,

   •   established a CTS workgroup to investigate whether changes to Job
       Corps policies and requirements are needed to prevent data validity
       problems with CTS providers, and

   •   issued clarification to the Job Corps community regarding use of AWOL
       status and parameters for reporting present for duty off-center.


OIG CONCLUSION

Based on ETA’s response, we consider all six of our recommendations resolved.
To close these recommendations, ETA needs to provide documentation of the
corrective actions taken.




Elliot P. Lewis
March 31, 2004




U.S. Department of Labor—Office of Inspector General                                 21
Report No: 09-05-001-03-370
                   Kittrell Job Corps Center: Manipulation of Student
                                    Attendance and Training Records




     THIS PAGE INTENTIONALLY LEFT BLANK




22             U.S. Department of Labor—Office of Inspector General
                                        Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records




Exhibits




U.S. Department of Labor—Office of Inspector General                                 23
Report No: 09-05-001-03-370
                   Kittrell Job Corps Center: Manipulation of Student
                                    Attendance and Training Records




     THIS PAGE INTENTIONALLY LEFT BLANK




24             U.S. Department of Labor—Office of Inspector General
                                        Report No: 09-05-001-03-370
                                                Kittrell Job Corps Center: Manipulation of Student
                                                                 Attendance and Training Records

                                                                                               Exhibit A

      Reported Performance Outcomes Impact Reimbursable Expenses,
         Incentive and Bonus Payments, and Job Corps Supervision

Center staff enters performance data into Job Corps’ automated systems.
Center operators are evaluated based on Outcome Measurement System (OMS)
performance during the contract year. Additionally, incentive fees and
performance excellence bonuses paid out to center operators are contingent
upon performance as generated by the OMS system. Each center’s overall
performance rating is compared to a National Performance Range established
annually by the Job Corps National Director. Contractors operating centers that
perform within the National Performance Range are paid an incentive fee in
addition to a negotiated base fixed fee (profit). The amounts paid to contractors
as incentive fees are based on where each center’s overall performance rating
falls within the National Performance Range. Better performing centers earn
contractors greater incentive fees. Contractors operating centers that fall below
the National Performance Range are not eligible for incentive fees. In addition to
the incentive fees, contractors whose performance exceeds the top of the
National Performance Range are paid a Performance Excellence Bonus.9

The Center Report Card is a critical performance report used by Job Corps to
assess center performance on a monthly and yearly basis. The OMS provides
performance information regarding students’ achievement of academic and
vocational credentials, initial placements and continued placements at 6- and 12-
months following initial placement. Based on our testing, the OIG has
questioned the reliability of five of nine performance outcomes reported on
Kittrell’s OMS-10 for PY 2000-2002, namely the 60-day commitment rate, the
GED/high school diploma attainment rate, the vocational completion rate, the
graduate placement rate and the former enrollee placement rate.10

The Center Quality Report Card is another critical performance report used by
Job Corps to assess center performance. The Center Quality Report Card is the
Job Corps report used to assess the quality and services of programs offered at
all Job Corps centers nationwide. The Quality Report Card supplements the
Center Report Card by providing performance information on aspects of center
life that otherwise would not be a systematic part of the Job Corps accountability

9
  The OIG was unable to calculate incentive fees and bonuses paid to the contractor as a result of data
manipulation because we were unable to project our statistical and judgmental samples to the population
for the first year of the current contract (6/1/02-5/31/03). Our statistical samples were based on the total
population for the 3-year period, PY 2000-2002.
10
   Our testing of the vocational completion rate was based on vocational programs completed as reported on
the Job Corps Vocational Training Report Card for Kittrell. The Center Report Card (OMS-10) reports
similar information. On the Center Report Card, the center receives credit for each student completing a
vocational program. On the Vocational Training Report Card, the center receives credit for each vocational
program completed. Additional credit is given if a student completes more than one vocational program.


U.S. Department of Labor—Office of Inspector General                                                     25
Report No: 09-05-001-03-370
                                     Kittrell Job Corps Center: Manipulation of Student
                                                      Attendance and Training Records

                                                              Exhibit A, Continued

system. This report card is also used in procurement decisions. One area that
this measurement system focuses on is the centers’ ability to operate at full
capacity. This is referred to as the student OBS measure. Centers operating at
less than full capacity may be required to refund to Job Corps a portion of their
reimbursable expenses.

Finally, Kittrell’s projection of student termination dates and its management of
the weekly WTR may have prevented the Atlanta Regional Office from identifying
enrollment issues at the center and thereby avoid closer supervision. The WTR
is the weekly occurrence of student terminations. According to Job Corps
regional management, regional offices carefully monitor the centers’ WTR for
signs of potential enrollment issues. For example, a high WTR (approximately
4.5 percent and above) may indicate that students are unhappy with the services
provided at a center and are leaving prematurely. Other reasons for a high WTR
include high incidents of positive drug tests, family commitments, and illness.
Kittrell’s WTR averaged 3.5 in PY 2000, 3.3 in PY 2001, and 3.1 in PY 2002.




26                              U.S. Department of Labor—Office of Inspector General
                                                         Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

                                                                             Exhibit B

              Examples of Retention Committee Meeting Minutes

The OIG obtained Retention Committee meeting minutes for the period June
2001 through December 2002. The language used in the Retention Committee
minutes shows that center staff were instructed to (1) use AWOL and
administrative leave to extend and stagger student termination dates, and (2)
delay departures of students that completed vocational programs by holding up
the processing of student termination papers. The following are additional
examples of Retention Committee meeting minutes and our interpretation of their
purpose.

Excerpt from Minutes (6/14/01):

       Will hit us . . . [name of student]…6/28/01. . . AWOL out . . .
       extend unpaid (leave) to 6/21/01.

OIG Interpretation:

This entry is another example of the Retention Committee manipulating the
center’s WTR by extending the enrollment of a student that had left the center
and was not returning. The 6/14/01 entry documents the Committee’s direction
to staff to extend the student’s unpaid leave to 6/21/01 and terminate the student
with an AWOL on 6/28/01. Leave records show that the student’s unpaid leave
was extended to 6/20/01. However, a series of AWOLs and unpaid leave were
used to extend the student beyond 6/28/01 to a 7/23/01 termination date. The
student was present at the center for 77 days before physically departing on
5/27/01. Another 56 days of consecutive leave extended the student’s
enrollment to133 days. The 56 days were included in Kittrell’s WTR and OBS
calculations. Table 3 shows the student’s leave pattern before termination:

              Table 3: Student Leave Pattern Before Termination

 Action                                            Dates                       Days
 Enrollment                                        3/13/01
 Unpaid Leave                                      5/28/01-6/20/01               24
 AWOL                                              6/21/01-6/21/01                1
 Unpaid Leave                                      6/22/01-6/29/01                8
 Paid Leave                                        6/30/01-7/14/01               15
 AWOL                                              7/16/01-7/23/01                8
 Termination                                       7/23/01

 Consecutive Leave Prior to Termination            5/28/01-7/23/01               56

 Total Days Credited to Center                     3/13/01-7/23/01              133


U.S. Department of Labor—Office of Inspector General                                  27
Report No: 09-05-001-03-370
                                     Kittrell Job Corps Center: Manipulation of Student
                                                      Attendance and Training Records

                                                              Exhibit B, Continued

Excerpt from Minutes (date not legible):

      [name of student] – completed RS (Retail Sales) . . . had HSD
      (High School Diploma) prior – wants to start school in January.
      Will not have 90 days until 8/19/01 – please schedule date after
      8/19/01. Paper returned until she has 90 days.

OIG Interpretation:

This entry is an example of the Retention Committee delaying the processing of
the termination papers of a student still at the center to ensure the student meets
a performance standard. The percent of terminated students staying at centers
at least 90 days is included in a weekly Cumulative Onboard Strength report
generated by Job Corps. The minutes note that the student had completed the
Retail Sales vocational program but would not have 90 days at the center until
8/19/01. Moreover, the minutes note that the student’s termination date was to
be scheduled after 8/19/01, with the termination papers returned until the student
met the 90-day standard. We confirmed that the student’s termination date was
extended beyond 8/19/01. Center enrollment records show that the student
terminated on 9/7/01, 109 days after enrolling. The student’s best interests were
not the primary consideration when the Retention Committee scheduled the
student’s termination date.

Excerpt from Minutes (date not legible):

      Papers…Hold until we get the AWOLs out for correct picture . . .
      [name of student] – Vocational, . . . [name of student] –
      Vocational, . . . [name of student] – Vocational, . . . [name of
      student] – Vocational.

OIG Interpretation:

This entry is an example of the Retention Committee directing staff to delay the
departure of four students that have completed vocational programs based on
the Committee’s review of AWOL students. We believe “Papers . . . Hold” refers
to delaying the processing of student termination papers. Additionally, we
believe “correct picture” refers to the number of students that will be terminated
because of AWOLs and the impact they will have on Kittrell’s WTR. As such, we
do not believe the Retention Committee had these students’ best interests in
mind when planning their termination dates.




28                               U.S. Department of Labor—Office of Inspector General
                                                          Report No: 09-05-001-03-370
                                        Kittrell Job Corps Center: Manipulation of Student
                                                         Attendance and Training Records

                                                                                  Exhibit C

 OIG Calculations for MTC’s Maximum Potential Refund to the Government
This exhibit provides our calculations for MTC’s $664,000 maximum potential
refund to the Government. Our calculations were based on the formula provided
in MTC’s contract to operate Kittrell. Section G.6 of the contract, titled
“Liquidated Damages for Failure to Comply with Regulations for Separating
Students”, states:
   The contractor agrees to comply with the current requirements for
   separating students from the program. The contractor agrees further that
   the refundable cost to the Government for each day a student is retained
   (counted in the reported onboard strength) in violation of Job Corps
   requirements, is determined by dividing the “annual student cost” (“cost
   per student year”), as stated in the contract, by 365.
The contract states that the average annual student cost for the first 2 years of
the contract was $20,100. We used this amount to calculate the refundable cost
to the Government for each day a student was counted as enrolled at the center
after the student’s actual departure from the center. We divided the $20,100 by
365, which gave us $55 per day. We then multiplied the $55 by the total number
of days students were counted as enrolled at the center after their actual
departure to arrive at the $664,000 maximum potential refund amount.

The $664,000 represents the maximum potential refund based on our off-center
review and identification of questionable student attendance records. The
supporting documentation maintained at the center was not reviewed. As such,
some of the questionable student attendance records may be valid.

                                     CY 2000    CY 2001     CY 2002    CY 2003       Totals
No. of Students with Extended
Enrollment                                84           81       126        100          391

No. of Days of Extended Enrollment      2,642      2,575       3,642      3,211      12,070
Refundable Cost per Day                x $55      x $55       x $55      x $55       x $55
Refundable Cost as per Contract      $145,310   $141,625    $200,310   $176,605    $663,850




U.S. Department of Labor—Office of Inspector General                                     29
Report No: 09-05-001-03-370
                                                      Kittrell Job Corps Center: Manipulation of Student
                                                                       Attendance and Training Records


                                                                                                                    Exhibit D

                  Improper Extension of Vocational Completers’ Enrollment

Vocation        Date              Date       Days                  CTS11         Days
Credited        Completed         Terminated Extended              Period        Questioned          Reason(s) for
                                             (a)                   (b)           (a-b)               Exceptions
Food Service    12/16/99          9/18/00           277            60            217                 •   No other training
                                                                                                         record on file.
                                                                                                     •   Terminated due to
                                                                                                         physical assault.

Facilities      5/22/00           11/1/00           163            60            103                 •   2nd TAR also for
Maintenance                                                                                              Facilities
                                                                                                         Maintenance. Date
                                                                                                         of completion of
                                                                                                         vocational training
                                                                                                         earlier than dates
                                                                                                         of completion of
                                                                                                         tasks.

Clerical        8/13/01           1/18/02           158            60            98                  •   No other training
Occupation –                                                                                             records on file.
Receptionist

Clerical        10/19/01          3/15/02           147            60            87                  •   No other training
Occupation -                                                                                             records on file.
Receptionist                                                                                         •   Terminated due to
                                                                                                         fighting.

Food Service    6/14/02           9/19/02           97             60            37                  •   Student profile
                                                                                                         indicated a 2nd
                                                                                                         TAR-Culinary Arts.
                                                                                                         But, there was no
                                                                                                         TAR on file.
Retail Sales    11/15/02          1/24/03           70             60            10                  •   TAR-Retail Sales
                                                                                                         completed
                                                                                                         11/15/02. Student
                                                                                                         profile indicated
                                                                                                         enrollment for
                                                                                                         same trade on
                                                                                                         11/18/02.




      11
         Job Corps management told us that they implemented a Career Transition Services (CTS) period for
      students in PY 2001 and that student stays beyond 60 days after vocational program completion became
      routine. We agree that there are valid reasons for students staying beyond 60 days after vocational program
      completion. However, we believe the lack of adequate supporting documentation indicates a weak
      management control environment that is consistent with the hotline complainant’s allegations that center
      managers inappropriately extended termination dates of students completing vocational programs.


      30                                        U.S. Department of Labor—Office of Inspector General
                                                                         Report No: 09-05-001-03-370
                                         Kittrell Job Corps Center: Manipulation of Student
                                                          Attendance and Training Records


                                                                                  Exhibit E

               Five Vocational Students with Questionable TARs

   Student            Vocation
 Termination          Credited               Reason(s) for Questioning Credit
    Date
    10/31/00       Child Day Care    •     No TAR for Child Day Care Worker on file.
                   Worker            •     10/25/00 training completion date provided by Job
                                           Corps is immediately prior to student’s 10/31/00
                                           termination due to drug possession.

    11/20/00       Business          •     TAR for Clerical Occupation but tasks not signed
                   Technologies            off as completed.
                                     •     According to Job Corps, student completed Clerical
                                           Occupation training in 5 days.
                                     •     Terminated due to AWOL after 69 days at center.

     2/21/01       Facilities        •     TAR signed off as completed on 2/19/01.
                   Maintenance       •     Terminated 2/21/01 due to marijuana possession,
                                           after 4 and 1/2 months at center.
                                     •     TAR appears to have been modified, task ratings
                                           marked as “Not proficient,” “Proficient,” and
                                           “Proficient and able to teach others” on the same
                                           dates.

     7/25/02       Health            •     Credit for 2 vocations and a GED within the 5
                   Occupation-             months present at the center. Student was off
                   Nurse Assistant         center on PDOF and paid leave for 40 days
                                           immediately prior to termination on 7/25/02.
                   Retail Sales      •     TAR for Health Occupation – Nurse Assistant
                                           completed within 10 calendar days.
                                     •     No TAR for Retail Sales on file.

     5/28/03       Business          •     TAR was for a foundation course; no other training
                   Technologies            or TAR on file.




U.S. Department of Labor—Office of Inspector General                                       31
Report No: 09-05-001-03-370
                                           Kittrell Job Corps Center: Manipulation of Student
                                                            Attendance and Training Records

                                                                                      Exhibit F

                          Questionable Graduate Placements

Placement   Program
   Date       Year                   Reasons for Questioning Placement
  6/8/00     2000     •   Job is Child Monitor. Does not appear to be a legitimate business. No
                          wages reported to the state for the 2nd quarter of 2000.

 9/20/00     2000     •   Job is Customer Service. No written verification as required. (Verbal
                          verification provided.)
                      •   No wages reported to the state for the 3rd or 4th quarters of 2000.

 10/5/01     2001     •   Job is Kitchen Helper. Written verification does not have a date for
                          when the graduate started work as required.
                      •   No wages reported to the state for the 3rd or 4th quarters of 2001.
                      •   Placement within 1 week before deadline.

 8/30/02     2002     •   No written verification as required.
                      •   Job is Child Monitor. Does not appear to be a legitimate business.
                          Student’s home address and employer’s home address are the same.
                      •   State wage data does not corroborate employer information that the
                          contractor reported.
                      •   Placement within 1 month before deadline.

 10/15/02    2002     •   Job is Cashier. No written verification as required.
                      •   Placement within 2 weeks before deadline.

 11/15/02    2002     •   Job is Child Monitor. Does not appear to be a legitimate business. No
                          wages reported to the state for the 4th quarter of 2002.
                      •   Placement within 2 weeks before deadline.

 1/29/03     2002     •   No written verification as required. (Verbal verification provided).
                      •   Job is Child Monitor. Does not appear to be a legitimate business.
                          State wage data does not corroborate employer information that the
                          contractor reported.
                      •   Placement within 2 days before deadline.




       32                             U.S. Department of Labor—Office of Inspector General
                                                               Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

                                                                                  Exhibit G

                   Questionable Former Enrollee Placements

     Placement         Program          Reasons for Questioning Placement
     Date              Year
     9/1/00            2000             •   Job is Account Manager. No written
                                            verification as required.
                                        •   No wages reported to the state for the 3rd
                                            quarter of 2000.

     9/11/00           2000             •   Job is Housecleaning. Does not appear
                                            to be a legitimate business. First,
                                            student’s last name and mailing address
                                            are the same as those of the employer.
                                            Second, no wages reported to the state
                                            for the 3rd quarter of 2000.

     11/9/00           2000             •   Job is Crew Member. No written
                                            verification as required.
                                        •   No wages reported to the state for the 4th
                                            quarter of 2000.

     12/23/01          2001             •   Job is Cleaning Worker. Does not
                                            appear to be a legitimate business. First,
                                            student’s last name and mailing address
                                            are the same as those of the employer.
                                            Second, no wages reported to the state
                                            for the 4th quarter of 2001.

     5/8/02            2001             •   Job is Childcare. Does not appear to be
                                            a legitimate business. First, on
                                            verification, employer indicates that she
                                            is a private individual. Second, no wages
                                            reported to the state for the 2nd quarter of
                                            2002.
                                        •   Placement about 1 week before
                                            deadline.

     7/26/02           2002             •   Job is Laborer and employer appears to
                                            be a private individual and not a
                                            legitimate business.
                                        •   No wages reported to the state for the 3rd
                                            quarter of 2002.

     8/13/02           2002             •   Job is Home Health Aide. Does not
                                            appear to be a legitimate business.
                                            Student’s address is the same as
                                            employer’s address.
                                        •   State wage data not available.




U.S. Department of Labor—Office of Inspector General                                       33
Report No: 09-05-001-03-370
                                  Kittrell Job Corps Center: Manipulation of Student
                                                   Attendance and Training Records

                                                           Exhibit G, Continued

                 Questionable Former Enrollee Placements

     Placement      Program        Reasons for Questioning Placement
     Date           Year
     12/10/02       2002           •   No written verification as required.
                                   •   Job is Yardwork. Does not appear to be
                                       a legitimate business. First, student’s
                                       address is the same as the employer’s.
                                       Second, no wages reported to the state
                                       for the 4th quarter of 2002.

     1/17/03        2002           •   Job is Yardwork. Does not appear to be
                                       a legitimate business. State wage data
                                       does not corroborate employer info that
                                       contractor reported.

     3/17/03        2002           •   Job is Yardwork. Does not appear to be
                                       a legitimate business. First, student’s
                                       mailing address is the same as that of
                                       the employer. Second, no wages
                                       reported to the state.
                                   •   Several inconsistencies between job
                                       verification letter and information that
                                       contractor reported. For example,
                                       employer did not write number of hours
                                       worked per week, yet contractor reported
                                       32 hours.




34                            U.S. Department of Labor—Office of Inspector General
                                                       Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records




Appendices




U.S. Department of Labor—Office of Inspector General                                 35
Report No: 09-05-001-03-370
                   Kittrell Job Corps Center: Manipulation of Student
                                    Attendance and Training Records




     THIS PAGE INTENTIONALLY LEFT BLANK




36             U.S. Department of Labor—Office of Inspector General
                                        Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

                                                                          Appendix A


Background
In May 2002, Job Corps began implementing performance-based contracts.
These contracts tie option years, incentive fees, and bonuses directly to
contractor performance. Job Corps’ Atlanta Regional Office is responsible for
selecting and supervising Kittrell’s contracted center operator. MTC is in the
second year of its 2-year performance-based contract to operate Kittrell. Job
Corps can award MTC annual options for 3 additional years. The Job Corps
National office approved the Atlanta Regional Office’s recommendation to award
the first option year to MTC in October 2003. The first option year began in June
2004. The Atlanta Regional Office will make the decision to recommend
approval of the second option year in August 2004.

The estimated contract price for MTC to operate Kittrell during its 2-year
performance-based contract and the three option years totaled $36.3 million.
The estimated contract price to provide career transition services during the
same 5-year period totaled $5.2 million.




U.S. Department of Labor—Office of Inspector General                                 37
Report No: 09-05-001-03-370
                   Kittrell Job Corps Center: Manipulation of Student
                                    Attendance and Training Records




     THIS PAGE INTENTIONALLY LEFT BLANK




38             U.S. Department of Labor—Office of Inspector General
                                        Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

                                                                          Appendix B

Objectives, Scope, Methodology,
Sampling, and Criteria
Objectives

The OIG conducted an audit at the Kittrell Job Corps Center to determine
whether a hotline complaint alleging that center managers manipulated student
attendance and training records to improve reported performance was valid, and
for those allegations that were substantiated, recommend appropriate corrective
action. This audit was one in a series of planned audits assessing Job Corps’
processes for ensuring the reliability of performance outcomes reported by center
operators and career transition services providers. As such, we also determined
whether reported performance for measures unrelated to the hotline complaint
was reliable.

Scope
We considered the hotline complaint we received on April 4, 2003, regarding the
practice of Kittrell managers falsifying student attendance and training records to
improve reported performance. We also tested the reliability of three
performance outcomes reported by Kittrell as part of our broader audit of Job
Corps performance data reliability. Our audit scope at Kittrell focused on
performance outcomes reported by the center from January 1, 2000, through
December 31, 2003.

Our audit work at Kittrell did not include a review of the internal controls used by
the center operator to ensure compliance with all Job Corps policies and
requirements, including those pertaining to performance date reliability.
Additionally, our assessment of the internal controls used by Job Corps to ensure
performance data reliability at all centers and CTS providers is ongoing and is
not included in this report. We did, however, issue an interim report (Interim
Report - Job Corps Performance Measurement Outcomes, Report No. 09-04-
004-03-370), on September 31, 2004. This report detailed control weaknesses in
a major component of Job Corps’ data validation system and recommended
immediate corrective actions.

We conducted audit fieldwork between September 2003 and March 2004, at the
following Job Corps locations: Kittrell, North Carolina; Washington, D.C.; Atlanta,
Georgia; San Francisco, California; and Seattle, Washington.

We conducted this audit in accordance with Government Auditing Standards
issued by the Comptroller General of the United States, and we performed such
tests as we considered necessary to satisfy our audit objective.

U.S. Department of Labor—Office of Inspector General                                 39
Report No: 09-05-001-03-370
                                     Kittrell Job Corps Center: Manipulation of Student
                                                      Attendance and Training Records

                                                           Appendix B, Continued

Methodology
To validate the hotline complaint and test the reliability of the reported
performance outcomes, we reviewed and analyzed a variety of reports and
supporting documentation provided by Kittrell, Job Corps’ San Marcos Data
Center, and the State of North Carolina. These reports and documents included
center performance reports, center committee meeting minutes, attendance and
leave records, training achievement records, high school transcripts and GED
test scores, job placement verification records, student administrative files,
regional office center assessment reports, and North Carolina Wage History
records. To determine the extent to which leave and AWOL were potentially
used to inappropriately extend student attendance, we reviewed leave records
for 100 percent of the students terminated during CY 2000-2003. We also
interviewed the hotline complainant and Kittrell and Job Corps management and
staff.

In conducting this audit, we did not attempt to identify each instance of
performance data manipulation nor each improper credit received by the center.
We also did not attempt to determine whether the Kittrell managers’ intended to
manipulate each of the performance measures noted in this report because the
manipulation of a student’s attendance records sometimes affected more than
one measure. For example, manipulating a student’s attendance records to
improve the center’s Weekly Termination Rate could also improve the center’s
60-day commitment rate. Instead, we reported the performance measures that
were affected by the data manipulation.

We provided Job Corps management with a copy of our draft audit report that
detailed the information we developed in the audit. ETA responded and we
carefully considered ETA’s response in preparing this report.

Sampling

To assess the merits of the allegation we received regarding the manipulation of
student attendance and training records at Kittrell, we included both judgmental
and statistical sampling in our sampling methodology.

We judgmentally selected administrative files for 88 of the 1,037 students that
went AWOL during PYs 2000-2002 to determine whether Kittrell managers
complied with Job Corps policy (PRH 6.1 R2a) prohibiting the granting of leave
as a means of artificially postponing a student’s separation date. Specifically, we
reviewed the files to determine whether (1) attendance and leave patterns were
consistent with the allegations made by the hotline complainant and Kittrell
employees, (2) AWOL and leave were supported by documentation required by


40                               U.S. Department of Labor—Office of Inspector General
                                                          Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

                                                            Appendix B, Continued

Job Corps policy (PRH 6.1) or center operating procedures, and (3) credit for the
30-day and 60-day commitment rates was received by the Outreach and
Admissions (OA) contractor or Kittrell as a result of AWOL and administrative
leave extending termination dates.

We statistically sampled 33 of 1,037 reported vocational program completions
and performed tests to determine (1) lengths of stays at the center after
vocational program completion and (2) whether the records supported additional
academic, vocational, or career preparation training (e.g., work-based learning,
driver’s education). We further reviewed these sampled 33 records to determine
whether the reported program completions were adequately supported by a
vocational TAR as required by Job Corps policy (PRH 3.13).

We statistically sampled 40 of Kittrell’s 491 students reported as attaining a GED
certificate or high school diploma during PYs 2000-2002 to determine whether
the GED/High School Diploma attainment credits were supported by
documentation as required by Job Corps policy (PRH 3.11).

We statistically sampled 36 of the 861 graduate placements and 35 of the 550
former enrollee placements reported by the CTS provider during PYs 2000-2002
to determine whether the placements were supported by documentation
required by Job Corps policy (PRH Exhibit 4-2) and/or State wage history
records.

Criteria
In addressing the audit objectives, we reviewed relevant Federal laws,
regulations and guidance. These included the Workforce Investment Act of
1998, the Government Performance and Results Act of 1993, Job Corps PRH,
Job Corps 2003 Annual Report, Kittrell Job Corps Center 2002 Contract, Kittrell
Financial Report for CY 2002, Kittrell Job Corps Center Standard Operating
Procedures, and various United States Codes.




U.S. Department of Labor—Office of Inspector General                                 41
Report No: 09-05-001-03-370
                   Kittrell Job Corps Center: Manipulation of Student
                                    Attendance and Training Records




     THIS PAGE INTENTIONALLY LEFT BLANK




42             U.S. Department of Labor—Office of Inspector General
                                        Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

                                                                          Appendix C


Acronyms and Abbreviations

AWOL      Absence Without Leave
CTS       Career Transition Services
CY        Calendar Year
ETA       Employment and Training Administration
GED       General Educational Development
HSD       High School Diploma
MTC       Management and Training Corporation
OBS       Onboard Strength
OIG       Office of Inspector General
OLRFI     Office of Labor Racketeering and Fraud Investigations
OMS       Outcome Measurement System
PDOF      Present for Duty Off-Center
PRH       Policy and Requirements Handbook
PY        Program Year
RS        Retail Sales
TAR       Training Achievement Record
U.S.C.    United States Code
WTR       Weekly Termination Rate




U.S. Department of Labor—Office of Inspector General                                 43
Report No: 09-05-001-03-370
                   Kittrell Job Corps Center: Manipulation of Student
                                    Attendance and Training Records




     THIS PAGE INTENTIONALLY LEFT BLANK




44             U.S. Department of Labor—Office of Inspector General
                                        Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records




Agency Response




U.S. Department of Labor—Office of Inspector General                                 45
Report No: 09-05-001-03-370
                   Kittrell Job Corps Center: Manipulation of Student
                                    Attendance and Training Records




     THIS PAGE INTENTIONALLY LEFT BLANK




46             U.S. Department of Labor—Office of Inspector General
                                        Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records

                                                                          Appendix D



ETA Response To Draft Report




U.S. Department of Labor—Office of Inspector General                                 47
Report No: 09-05-001-03-370
         Kittrell Job Corps Center: Manipulation of Student
                          Attendance and Training Records




48   U.S. Department of Labor—Office of Inspector General
                              Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records




U.S. Department of Labor—Office of Inspector General                                 49
Report No: 09-05-001-03-370
         Kittrell Job Corps Center: Manipulation of Student
                          Attendance and Training Records




50   U.S. Department of Labor—Office of Inspector General
                              Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records




U.S. Department of Labor—Office of Inspector General                                 51
Report No: 09-05-001-03-370
         Kittrell Job Corps Center: Manipulation of Student
                          Attendance and Training Records




52   U.S. Department of Labor—Office of Inspector General
                              Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records




U.S. Department of Labor—Office of Inspector General                                 53
Report No: 09-05-001-03-370
         Kittrell Job Corps Center: Manipulation of Student
                          Attendance and Training Records




54   U.S. Department of Labor—Office of Inspector General
                              Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records




U.S. Department of Labor—Office of Inspector General                                 55
Report No: 09-05-001-03-370
         Kittrell Job Corps Center: Manipulation of Student
                          Attendance and Training Records




56   U.S. Department of Labor—Office of Inspector General
                              Report No: 09-05-001-03-370
                                      Kittrell Job Corps Center: Manipulation of Student
                                                       Attendance and Training Records




U.S. Department of Labor—Office of Inspector General                                 57
Report No: 09-05-001-03-370
         Kittrell Job Corps Center: Manipulation of Student
                          Attendance and Training Records




58   U.S. Department of Labor—Office of Inspector General
                              Report No: 09-05-001-03-370
